App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,
v.

No. 17-50192
D.C. No.
2:16-cr-00066-PA
MEMORANDUM*

LEROY BACA,

(Filed Feb. 11, 2019)

Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
Percy Anderson, District Judge, Presiding
Argued and Submitted November 6, 2018
Pasadena, California
Before: RAWLINSON and HURWITZ, Circuit Judges,
and BOUGH,** District Judge.
Leroy Baca appeals from the district court’s judgment and challenges his jury-trial convictions for conspiracy, in violation of 18 U.S.C. § 371; obstruction of
justice, in violation of 18 U.S.C. § 1503(a); and making
a false statement, in violation of 18 U.S.C. § 1001(a)(2).

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Stephen R. Bough, United States District
Judge for the Western District of Missouri, sitting by designation.

App. 2
We have jurisdiction under 28 U.S.C. § 1291, and we
affirm.
1. In his case in chief, Baca sought to introduce
expert testimony by Dr. James Spar, M.D., regarding
Baca’s Alzheimer’s diagnosis. We review a district
court’s decision to exclude expert testimony under Federal Rules of Evidence 403 and 702 for abuse of discretion. See United States v. Spangler, 810 F.3d 702, 706
(9th Cir. 2016); United States v. Hankey, 203 F.3d 1160,
1167 (9th Cir. 2000). The district court did not abuse
its discretion in rejecting Dr. Spar’s testimony as unreliable given his speculation about whether Baca suffered from cognitive impairments when making his
false statements, and, if so, how those impairments affected his answers. The district court also did not abuse
its discretion in excluding this testimony under Rule
403 given its probative value in relation to the risk of
jury confusion. Nor did exclusion of this evidence deny
Baca his constitutional right to present a defense. See
United States v. Waters, 627 F.3d 345, 354-55 (9th Cir.
2010).
2. At trial, Baca sought to elicit testimony that
after Assistant Sheriff Rhambo warned Baca not to interfere with the federal investigation, Baca responded
by stating that federal authorities had broken the law.
The district court excluded this testimony as hearsay.
On appeal, Baca argues this statement was either not
hearsay or subject to the state-of-mind exception to the
hearsay rule. Because Baca failed to raise either argument before the district court, we review for plain error. See United States v. Chang, 207 F.3d 1169, 1176

App. 3
(9th Cir. 2000). Even assuming arguendo that the district court erred in excluding this testimony, Baca has
failed to demonstrate that any error affected his substantial rights. See, e.g., United States v. Aighazouli,
517 F.3d 1179, 1190 (9th Cir. 2008). Baca introduced
evidence of similar instances where he told others that
he believed federal authorities had broken the law during their investigation. He was therefore able to argue
to the jury in closing that it was this belief, and not an
intent to obstruct justice, which motivated his actions.
Accordingly, we find no plain error.
3. Baca also argues that the district court erred
in empaneling an anonymous jury. We review for abuse
of discretion, see United States v. Shryock, 342 F.3d 948,
970-71 (9th Cir. 2003), and find none. The district
court’s decision to empanel an anonymous jury was
reasonable in light of the highly publicized nature of
this case, Baca’s and his co-conspirator’s positions as
former high-ranking law enforcement officers, and the
nature of the charges at issue. See id. at 971 (setting
forth factors considered in deciding whether to empanel an anonymous jury). Additionally, the district
court minimized any risk of prejudice to Baca by instructing the jury that an anonymous jury was utilized
to protect the jurors’ privacy and was unrelated to
Baca’s guilt or innocence. See id. (requiring the district
court to adopt “reasonable safeguards” to minimize the
risk that the defendant’s rights are infringed).
4. Baca next contends that the district court
erred in denying his motion to dismiss the indictment
on double jeopardy grounds after the mistrial in Baca’s

App. 4
first trial. The district court declared a mistrial after
the jury reported (and reaffirmed in open court) that it
was unable to reach a verdict and there was not a reasonable probability that further deliberations would be
productive. We review a district court’s determination
that there was manifest necessity to declare a mistrial
for abuse of discretion. United States v. Chapman, 524
F.3d 1073, 1082 (9th Cir. 2008). Given the jury’s assessment and the length of the deliberations, the district
court did not abuse its discretion in declaring the mistrial. See United States v. Hernandez-Guardado, 228
F.3d 1017, 1028 (9th Cir. 2000) (setting forth factors a
district court should consider in determining whether
to declare a mistrial because of jury deadlock, and noting the “most critical factor” is the “jury’s own statement that it is unable to reach a verdict”).1 Because the
district court did not abuse its discretion in finding
manifest necessity for a mistrial in Baca’s first trial,
the Double Jeopardy Clause did not bar his retrial. See,
e.g., United States v. Alvarez-Moreno, 657 F.3d 896, 900
(9th Cir. 2011).

11

[sic] Baca requests that we adopt a rule requiring a district
court to give a potentially deadlocked jury an Allen charge when
the defendant requests it and the charge would not be per se
coercive under this Court’s precedent. See Allen v. United States,
164 U.S. 492 (18960 [sic]. We decline to do so. As we have recognized, “[e]xtraordinary caution must be exercised when acting to
break jury deadlock,” and this is particularly the case with Allen
charges. United States v. Evanston, 651 F.3d 1080, 1085 (9th Cir.
2011). The decision on whether to give an Allen charge is left
properly to the discretion of the district court. See, e.g., United
States v. See, 505 F.2d 845, 854 (9th Cir. 1974).

App. 5
5. Baca also challenges the district court’s jury
instructions regarding the government’s cooperating
witnesses. We find no error. See United States v.
Ubaldo, 859 F.3d 690, 700 (9th Cir. 2017) (a district
court’s formulation of jury instructions are reviewed
for abuse of discretion). The district court properly instructed the jury that the cooperating witnesses were
seeking leniency at sentencing and that the testimony
of these witnesses’ [sic] should be evaluated with
greater caution than that of others. The district court’s
further instruction regarding the district court’s exclusive authority to determine the cooperating witnesses’
sentences independent of the government’s recommendation was not misleading.
6. Baca next argues that the district court improperly instructed the jury regarding the obstruction
of justice count’s mens rea requirement. We disagree.
The district court properly instructed the jury that in
order to convict Baca for obstruction of justice, the government had to prove beyond a reasonable doubt that
Baca acted “corruptly,” meaning that he knew of the
federal grand jury investigation and acted with an intent to obstruct it. See United States v. Rasheed, 663
F.2d 843, 852 (9th Cir. 1981) (“We hold that the word
‘corruptly’ as used in the statute means that the act
must be done with the purpose of obstructing justice.”).
The Supreme Court’s decision in Arthur Andersen LLP
v. United States, 544 U.S. 696 (2005), did not require
the government to prove that Baca acted with a consciousness of wrongdoing or that his conduct was

App. 6
wrongful, immoral, depraved, or evil. See United States
v. Watters, 717 F.3d 733, 735-36 (9th Cir. 2013).
7. Baca argues that the prosecutor engaged in
misconduct during his rebuttal argument. We find no
basis for reversing. Contrary to Baca’s contention, the
government did not argue that the cooperating witnesses’ guilty verdicts could be used as evidence of
Baca’s guilt. Further, the district court negated any unfair inference created by the government’s references
to the guilty verdicts in the jury instructions. See, e.g.,
Deck v. Jenkins, 814 F.3d 954, 979 (9th Cir. 2014) (“[A]
jury is presumed to follow the trial court’s instructions.”). Finally, although we do not condone the government’s decision to reference Baca’s counsel by name
and accuse him personally of distorting the evidence or
attempting to mislead the jury, we conclude that this
line of argument did not materially affect the verdict.
See, e.g., United States v. Taylor, 641 F.3d 1110, 1120
(9th Cir. 2011).2
8. Finally, sufficient evidence supported Baca’s
convictions. First, the government was not required to
introduce evidence that Baca engaged in bribery to satisfy the “corruptly” element of 18 U.S.C. § 1503(a). Rather, “the word ‘corruptly’ as used in the statute means
the act must be done with the purpose of obstructing
justice.” Rasheed, 663 F.2d at 852. The government introduced sufficient evidence from which a jury could
2

To the extent the Defendant argues the district court erred
in how it handled the parties’ objections during closing argument,
we find no abuse of discretion. See United States v. Etsitty, 130
F.3d 420, 424 (9th Cir. 1997) (per curiam).

App. 7
conclude that Baca acted with this requisite intent.
Second, as to the false statement count, the government introduced sufficient evidence from which the
jury could conclude that Baca made his false statements in a “matter within the jurisdiction” of the executive branch. 18 U.S.C. § 1001(a); see also United
States v. Rodgers, 466 U.S. 475, 479-83 (1984).
AFFIRMED.

U.S.A. v. Baca, Case No. 17-50192
Rawlinson, Circuit Judge, concurring in the result:
I concur in the result.

App. 8
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNITED STATES
OF AMERICA,
Plaintiff,
v.

Case No. CR16-66(A) PA
FINDINGS RE USE OF
ANONYMOUS JURY
(Filed Mar. 26, 2017)

LEROY BACA,
Defendant.
The Court finds that it is appropriate to empanel
an anonymous jury in the above-entitled matter for the
following reasons:
1. Defendant Leroy Baca (“defendant”), the former Sheriff of the Los Angeles County Sheriff ’s Department (“LASD”), is alleged to have engaged in an
organized criminal conspiracy in which defendant had
the ultimate power and decision-making authority.
2. The conspiracy involved multiple highranking law enforcement officers. Based on his former
position of authority, defendant is extremely likely to
have present connections to law-enforcement officers
with the ability to access jurors’ private information.
Jurors have expressed apprehension [sic] the ability of
defendant’s co-conspirators’ ability to access their private information and safety concerns in two factually
and legally related criminal trials before this Court.
3. In this case, Defendant is alleged to have interfered with the judicial process and witnesses by

App. 9
hiding a federal informant, disobeying a federal writ
for testimony, tampering with witnesses, and intimidating federal officers. While Mr. Baca is presumed innocent of these charges, others associated with Mr.
Baca have been found guilty beyond a reasonable
doubt by three separate juries of interfering with the
judicial process.
4. Defendant, if convicted, may suffer a lengthy
period of incarceration of up to ten years’ imprisonment for obstruction of justice and five years’ imprisonment for conspiring to do so and for making false
statements to governmental agencies 18 U.S.C.
§ 1503(b)(3); 18 U.S.C. § 371; 18 U.S.C. § 1001. Others
proven guilty of the conspiracy have been sentenced to
terms of imprisonment of up to 60 months.
5. This case has already attracted publicity and
the Court expects it will be followed by the media,
thereby enhancing the possibility that jurors’ names
would become public. Such exposure could lead to potential intimidation and harassment, as well as interference with the judicial process.
6. This procedure will also protect the defendant
and allow him to receive a fair trial and protect the integrity of the judicial process. In addition, an anonymous jury will ensure that the jurors are not exposed
to the litigation history of the case.
7. Instructing the jury at the beginning of jury
selection and at the beginning of trial that an anonymous jury procedure is commonplace and is being utilized in order to protect juror privacy, to ensure that

App. 10
the parties receive a fair trial, and that the reasons for
juror anonymity have nothing to do with the guilt or
innocence of the defendant, will safeguard against any
potential prejudice that might otherwise result from
the use of an anonymous jury procedure.
DATED: March 26, 2017
/s/

Percy Anderson
Percy Anderson
UNITED STATES DISTRICT JUDGE

App. 11
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNITED STATES
OF AMERICA,

No. CR 16-66 PA
JURY INSTRUCTIONS

Plaintiff,

(Filed Mar. 13, 2017)

v.
LEROY BACA,
Defendant.
*

*

*

You have heard evidence and argument regarding
the federal government’s investigation of allegations of
abuse and corruption by the Los Angeles County
Sheriff ’s Department (“LASD”), including its use of an
informant and an undercover operation. Law enforcement officials may engage in stealth and deception,
such as the use of informants and undercover agents,
in order to investigate criminal activities. Undercover
agents and informants may use false names and appearances and assume the roles of members in criminal organizations.
Local law enforcement departments, including the
LASD, do not have authority to direct or control federal
investigations, including those by the FBI, the U.S. Attorney’s Office, or a federal grand jury. In order to investigate crime, federal law enforcement agencies are
entitled to choose their own tactics and strategies, conduct their own evaluations of risks, assign their own

App. 12
personnel, and make their own decisions regarding
whether to inform others, including targets, that an investigation is underway.
When an undercover investigation involves the
use of informants and undercover agents, neither the
law enforcement officers conducting the operation nor
the informants assisting in the investigation become
co-conspirators with the target of the undercover activity.
It is not for you to decide whether or how the federal government should have conducted its investigation. Your duty is to decide whether the government
has proved beyond a reasonable doubt that the defendant committed the crimes charged in the indictment.
A local officer has the authority to investigate potential violations of state law. This includes the authority to investigate potential violations of state law by
federal agents. A local officer, however, may not use
this authority to engage in what ordinarily might be
normal law enforcement practices, such as interviewing witnesses, attempting to interview witnesses or
moving inmates, for the purpose of obstructing justice.
*

*

*

The defendant is charged in Count One of the indictment with conspiring to obstruct justice, in violation of Section 371 of Title 18 of the United States
Code. In order for the defendant to be found guilty of
that charge, the government must prove each of the
following elements beyond a reasonable doubt:

App. 13
First, beginning on or about August 18, 2011, and
ending on or about September 26, 2011, there was an
agreement between two or more persons to commit the
crime of obstruction of justice;
Second, the defendant became a member of the
conspiracy knowing its objects and intending to help
accomplish it; and
Third, one of the members of the conspiracy performed at least one overt act for the purpose of carrying out the conspiracy.
A conspiracy is a kind of criminal partnership – an
agreement of two or more persons to commit one or
more crimes. The crime of conspiracy is the agreement
to do something unlawful; it does not matter whether
the crime agreed upon was committed.
For a conspiracy to have existed, it is not necessary
that the conspirators made a formal agreement or that
they agreed on every detail of the conspiracy. It is not
enough, however, that they simply met, discussed matters of common interest, acted in similar ways, or perhaps helped one another. You must find that there was
a plan to commit the crime of obstruction of justice as
alleged in the indictment.
One becomes a member of a conspiracy by willfully
participating in the unlawful plan with the intent to
advance or further some object or purpose of the conspiracy, even though the person does not have full
knowledge of all the details of the conspiracy. Furthermore, one who willfully joins an existing conspiracy is

App. 14
as responsible for it as the originators. On the other
hand, one who has no knowledge of a conspiracy, but
happens to act in a way which furthers the object or
purpose of the conspiracy, does not thereby become a
conspirator. Similarly, a person does not become a conspirator merely by associating with one or more persons who are conspirators, nor merely by knowing that
a conspiracy exists.
An overt act does not itself have to be unlawful. A
lawful act may be an element of a conspiracy if it was
done for the purpose of carrying out the conspiracy. The
government is not required to prove that the defendant
personally did one of the overt acts.
The defendant is charged in Count Two of the indictment with obstruction of justice in violation of Section 1503 of Title 18 of the United States Code. In order
for the defendant to be found guilty of that charge, the
government must prove each of the following elements
beyond a reasonable doubt:
First, the defendant influenced, obstructed, or impeded, or tried to influence, obstruct, or impede a federal grand jury investigation; and
Second, the defendant acted corruptly, meaning
the defendant had knowledge of the federal grand jury
investigation and intended to obstruct justice.
The government does not need to prove that actual
obstruction of the pending grand jury investigation occurred, so long as you find that the defendant acted
with the purpose of obstructing the pending grand jury

App. 15
investigation, and he knew that his actions had the
natural and probable effect of interfering with the
pending grand jury investigation, and the government
proves the elements of the offense beyond a reasonable
doubt.
For the conspiracy charge in Count One and the
obstruction of justice charge in Count Two, the government need not prove that the defendant’s sole or even
primary intention was to obstruct justice so long as the
government proves beyond a reasonable doubt that
one of the defendant’s intentions was to obstruct justice. The defendant’s intention to obstruct justice must
be substantial.
The government may establish the FBI was acting
as an arm of the grand jury by showing the FBI agents:
(1) undertook the investigation to supply information
to the grand jury in direct support of a grand jury investigation; (2) were integrally involved in the investigation; and (3) undertook the investigation with the
intention of presenting evidence before the grand jury.
*

*

*

App. 16
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,
v.
LEROY BACA,

No. 17-50192
D.C. No.
2:16-cr-00066-PA-1
Central District of
California,
Los Angeles

Defendant-Appellant. ORDER
(Filed Apr. 19, 2019)
Before: RAWLINSON and HURWITZ, Circuit Judges,
and BOUGH,* District Judge.
The panel has voted to deny the petition for panel
rehearing. Judge Rawlinson and Judge Hurwitz vote
to deny the petition for rehearing en banc, and Judge
Bough so recommends.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Baca’s petition for panel rehearing and petition for
rehearing en banc (Docket Entry No. 95) are denied.
* The Honorable Stephen R. Bough, United States District
Judge for the Western District of Missouri, sitting by designation.

